<html>
<title> - THE GROWING CRISIS OF AFRICA'S ORPHANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 THE GROWING CRISIS OF AFRICA'S ORPHANS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2014

                               __________

                           Serial No. 113-198

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
88-733                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14                               LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsins--
    added 5/29/14 
CURT CLAWSON, Florida--
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nancy Lindborg, Assistant Administrator, Bureau for 
  Democracy, Conflict and Humanitarian Assistance, U.S. Agency 
  for International Development..................................     4
The Honorable Robert P. Jackson, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.    14
Ms. Kelly Dempsey, general counsel and director of advocacy and 
  outreach, Both Ends Burning....................................    23
Shimwaayi Muntemba, Ph.D., founder, Zambia Orphans of AIDS.......    33
Mrs. Jovana Jones, adoptive mother of a Congolese child..........    47
Ms. Muluemebet Chekol Hunegnaw, senior director, Monitoring & 
  Evaluation and Knowledge Management Program Quality and Impact 
  Department, International Programs, Save the Children..........    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nancy Lindborg: Prepared statement.................     8
The Honorable Robert P. Jackson: Prepared statement..............    17
Ms. Kelly Dempsey: Prepared statement............................    27
Shimwaayi Muntemba, Ph.D.: Prepared statement....................    35
Mrs. Jovana Jones: Prepared statement............................    49

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
Ms. Muluemebet Chekol Hunegnaw: Statement for the record.........    68
Ms. Kelly Dempsey: Both Ends Burning report......................    76
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statements for the record from:
  Catholic Relief Services.......................................    84
  World Vision US................................................    86
  Christian Alliance for Orphans.................................    89


                 THE GROWING CRISIS OF AFRICA'S ORPHANS

                              ----------                              


                        WEDNESDAY, JULY 16, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    Good afternoon, everyone.
    Today's hearing addresses a very important humanitarian 
crisis: The more than 50 million children orphaned on the 
continent of Africa. Indeed, to put this in perspective, as one 
of our witnesses today, Shimwaayi Muntemba, has pointed out, 
with such a number, the orphans of Africa, if grouped together 
in a single country, would be the fourth-largest country in all 
of Africa after Nigeria, Ethiopia, and the Democratic Republic 
of the Congo.
    The factors contributing to this crisis are varied, 
starting with civil war and civil unrest, which have displaced 
millions, wars that have led to the deaths of parents and other 
adult relatives, leaving children to fend for themselves, or 
sometimes children who are separated from their parents in a 
mad flight for sanctuary, never learning if their moms or dads 
are alive or dead. They may never know if they are orphaned in 
reality or if both parents turn out to have survived and are 
alive in a refugee camp somewhere else. Such parents, too, 
agonize over what ever happened to their beloved children.
    Other children are indirect victims of the HIV/AIDS 
pandemic, which has wreaked such devastating havoc on the 
continent, or other diseases. They could have lost one or both 
parents to this or some other dreaded disease.
    Often being forced into the role of primary caretaker of 
younger siblings, their childhood innocence is ended by the 
burdens of adult responsibility.
    As with many of the humanitarian crises that confront the 
continent, there is a big-picture aspect to this one and one 
which we as Congress certainly need to address. There are 
important strategic implications of so many children and 
adolescents left without moms or dads.
    We have all heard of the scourge of child soldiers, how 
orphaned children are recruited and brutalized, themselves, 
into becoming remorseless killers. Terrorist groups, such as 
the Lord's Resistance Army under the rapacious warlord Joseph 
Kony, actively recruit child soldiers. Perhaps our State 
Department witness, the Honorable Robert Jackson, with his vast 
depth of regional knowledge, may address that in his remarks 
today.
    And if humanitarian reasons are not enough to compel 
Congress to rally behind the efforts to address the issue of 
Africa's orphans by USAID and countless other charitable 
organizations, many of them faith-based, then strategic 
concerns and the effect that this has on the stability 
throughout the region should be a reason to sit up and take 
notice of this tragedy.
    But behind every statistic about an orphaned child or 
children, behind the pie charts and graphs, there is also a 
portrait in miniature: A lonely child who is left without a 
mother or a father, perhaps dealing each night with the pangs 
of hunger or just seeking a place where he or she can lay down 
his or her head in safety until the morning comes. That child 
awakes to forage and to fend for another day.
    Behind every statistic, there is a young boy or girl who 
has to deal with the sense of abandonment or with the trauma of 
having seen parents killed before his or her own eyes; there is 
a little soul, a young person, whose inherent dignity has been 
scarred in a world itself wounded, where there is so much pain, 
suffering, and darkness.
    These children are in need of love and compassion, of 
simple needs being met. Those who find loving homes and 
families are truly the lucky ones. One remedy for this crisis 
is inter-country adoption, which sometimes brings children from 
Africa to our shores to provide them with loving homes.
    This is, of course, only a partial remedy, because for 
every child who is given a loving home, there are many more for 
whom there will never be such a refuge. At best, they may end 
up in an institutional orphanage, which is a topic fraught with 
controversy. While the best ones--again, often faith-based--
help address the developmental and education needs of children, 
the worst may abet human trafficking.
    In some cases, such institutions do not even shelter 
orphans per se, but, rather, children are placed there by 
parents who think that their children will get a better 
education and nutrition than what they themselves can provide. 
Clearly, such institutions can never provide the type of love 
that a father and a mother, along with any siblings, can 
provide.
    One issue that will be addressed in our second panel today, 
then, is the role of inter-country adoption in helping address, 
at least in part, the crisis of orphans. Some of the testimony 
will be critical of the role of our State Department's Office 
of Children's Issues in the Bureau of Consular Affairs. Such 
testimony needs to be heard, for we can and we must, all of us, 
do better.
    We will also hear about an adoption issue that has received 
a lot of attention on Capitol Hill and was the topic of a 
resolution authored by my good friend and colleague, Collin 
Peterson of Minnesota, which I am happy to say was passed by 
the House of Representatives just a few weeks ago after being 
marked up by our subcommittee and then the full Foreign Affairs 
Committee.
    Last year, the DRC suspended the issuance of exit permits 
for Congolese children adopted by foreign parents, impacting 
hundreds of U.S. families. The suspension means that the 
Congolese children adopted by American parents simply cannot 
leave the country to go to their new homes even though the 
parents have been officially declared the legal guardians under 
Congolese law.
    What's more, despite the exit-permit suspension, Congolese 
courts have continued processing new adoptions, leading to a 
backlog of adopted children who are unable to leave the 
country. More than 800 American families are caught up, in 
varying degrees, of this adoption limbo, breaking hearts.
    This is a deplorable situation for these children and for 
their distraught families, as well. Indeed, we will hear about 
this from one such family that has been impacted, as well as an 
advocate for families that in like manner have been impacted.
    Finally, I also want to say a word to those parents here 
today who have endured not only burdens that are financial but 
ones that are primarily emotional, separated from the children 
they have voluntarily and lovingly welcomed into their lives.
    Your hardship and pain is deeply noted by my colleagues and 
I, as well as our staff members, many of whom have worked not 
only on passing Congressman Peterson's resolution but have also 
promoted within our State Department and the Government of the 
DRC some effective and durable remedies to these situations. 
Please continue to persevere. Don't give up hope. Both the 
executive branch and the legislative branch are firmly in your 
corner.
    I would like to new yield to Karen Bass, the ranking 
member.
    Ms. Bass. Thank you, Mr. Chair, as always, for your 
leadership on this and so many other issues.
    I would also like to thank our distinguished witnesses, 
including the Honorable Robert Jackson, Principal Deputy 
Assistant Secretary in the Bureau of African Affairs; the 
Honorable Nancy Lindborg, Assistant Administrator in the Bureau 
for Democracy, Conflict and Humanitarian Assistance; and 
humanitarian and advocacy experts from the civil society.
    According to UNICEF, in 2012 there were an estimated 56 
million orphaned children in Africa, of whom an estimated 27 
percent were orphaned due to HIV/AIDS.
    Numerous sources suggest orphans typically consist of a 
number of our most vulnerable children, who have been or could 
become victims of trafficking, child labor, violence, and 
abuse. We can't allow children under any circumstances to be 
subject to such brutality. Congress should do all we can to 
ensure that all children can grow up in loving and caring 
homes.
    I am a proud cosponsor of Children in Families First, which 
is led by my esteemed colleague, Senator Landrieu. This 
legislation can be one of the solutions to addressing the issue 
of orphaned children, not only in Africa but around the world.
    CHIFF, as we are calling it, Children in Families First, 
which aims to redirect some U.S. resources to focus more on 
ensuring that all children grow up in families, draws on the 
strength of agencies to achieve that goal.
    As we prepare to hear from today's witnesses, I hope we can 
learn lessons from their expertise and use their knowledge to 
improve conditions for orphaned children in Africa. I am 
committed to working toward this end and look forward to 
working with my colleagues to find the most effective and 
sustainable solutions.
    Mr. Smith. Thank you very much.
    Because of time limitations, would you like to give a brief 
opening statement?
    Mr. Bera. Yeah, just very quickly, I want to thank the 
chairman and ranking member for, obviously, a very important 
hearing. We still have a long ways to go, though, I would say. 
Thank you.
    Mr. Smith. Thank you, Dr. Bera.
    As John Lennon said in ``The Ballad of John and Yoko Ono,'' 
it's good to have the both of you back.
    We have two very distinguished government leaders providing 
testimony.
    But, very briefly, Nancy Lindborg is the Assistant 
Administrator for the Bureau of Democracy, Conflict and 
Humanitarian Assistance at USAID. She has testified before our 
subcommittee on numerous occasions.
    Since assuming her office in 2010, Ms. Lindborg has led 
DCHA teams in response to the ongoing Syria crisis, the Horn of 
Africa in 2011, Sahel in 2012 droughts, the Arab Spring, the 
aftermath of Typhoon Haiyan in the Philippines, and numerous 
other global crises.
    Prior to joining USAID, she was president of Mercy Corps, 
where she spent 14 years doing that wonderful work of 
protecting the weak and the vulnerable.
    We will also then hear from Ambassador Robert Jackson, who 
is currently Principal Deputy Assistant Secretary to Bureau of 
African Affairs.
    He previously served as Ambassador to Cameroon as well as 
Deputy Chief of Mission and Charge at the U.S. Embassies in 
Morocco and Senegal. He has also served at U.S. Embassies in 
Burundi, Zimbabwe, Portugal, and Canada.
    At the State Department headquarters, he has worked in 
commercial and consular sections and conducted officer 
training. He has also performed oversight work in the Office 
for the Promotion of Democracy and Human Rights after 9/11.
    Ambassador Jackson has appeared before this subcommittee, 
again, on many, many occasions. And welcome back.
    Ms. Lindborg, please go first.

     STATEMENT OF THE HONORABLE NANCY LINDBORG, ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lindborg. Chairman Smith, Ranking Member Bass, members 
of the subcommittee, thank you very much for inviting me to 
testify today.
    And, Chairman Smith, I want to specifically acknowledge 
your extraordinary leadership on human rights and humanitarian 
assistance worldwide. So, many thanks.
    Africa, as we know, is a continent on the rise. It has 
growing economies and the youngest population in the world. 
Fifty percent of the population of sub-Saharan Africa is under 
the age of 18. So there is an extraordinary potential for this 
generation of youth to shape the future in powerful ways.
    However, more than 200 million of these children currently 
live in extreme poverty, over 15 million children have lost one 
or more parents to AIDS, and millions more, as we have heard, 
are affected by conflict and natural disaster.
    I have personally seen what happens to the children and 
families who are affected by these conflicts. Often, the shocks 
are coming one after another. And we also have seen the 
enormous difference that USAID-supported programs can make in 
the lives of these affected.
    I want to just cite Nyawal Ruach, a 29-year-old mother in 
Bor, Sudan. And, during the recent violence, she saw conflict 
coming toward her house. She tied her two young sons together 
so she wouldn't lose them, but they nonetheless got swept away 
in the crowds. And it was through a U.S.-supported center that 
reunited families that she was able to find her sons again. In 
the middle of a conflict, that is a powerful and important 
thing to have happen.
    The United States has long been the largest donor for 
orphans and vulnerable children. And, in 2005, a very important 
law, Public Law 109-95, passed and that, coupled with the 
learnings from an evidence summit in 2011, really helped us to 
galvanize across the entire interagency and prompt us to create 
an Action Plan on Children in Adversity. And so, for the first 
time, we now have across the interagency a common framework and 
a shared language that really pulls together the efforts of 
seven agencies across the U.S. Government.
    And, as you noted, Chairman Smith, there are many causes of 
adversity, from conflict to poverty to HIV/AIDS, but this 
framework helps us understand and stay focused on the three 
overarching, interrelated objectives that we know are the most 
important for making a difference in the life of a child. So I 
want to just quickly talk about those three objectives.
    The first is, Africa has seen extraordinary progress in 
reducing the number of children who die before their fifth 
birthday. These mortality rates have been reduced by almost 
half in 20 years. We stand within reach of ending preventable 
child and maternal deaths by 2035. That is extraordinary.
    We also know that keeping children alive is also just the 
first step. We know that the first 1,000 days between a woman's 
pregnancy and a child's second birthday lays the foundation for 
your entire life, for your lifelong health and your future 
development.
    So the first objective of our action plan is to build 
strong beginnings. And we are helping to build the long-term 
health of children through nutrition, through health. We have a 
new USAID nutrition policy, and our Office of Food for Peace is 
applying the best of nutritional science to reformulate special 
foods that meet the nutritional needs of children under 2 with 
more therapeutic food products.
    We have also seen increasing evidence of the essential need 
for nurture and emotional support during these early, critical 
formative years. And studies have shown that excessive stress 
can actually have the same effect on a developing brain as 
malnutrition.
    A very powerful story that has informed this was that, 
following the genocide in Rwanda, when 1 million refugees 
poured into what was then Zaire, in an effort to save lives, 
infants and children were separated from their families and 
essentially laid out on beds so they could receive vaccines and 
IV nutritional feeding, yet they still died by the hundreds. 
And what we learned from that was the phenomenon called 
``failure to thrive,'' that they lacked the human contact and 
nurture that is required to grow and to develop.
    This was a very painful and powerful lesson, but that has 
led to our second objective of the action plan, which is called 
``Put Families First.''
    Evidence has shown that families, extended families, 
including parents, grandparents, relatives, foster or adoptive 
families, are the best source of support for children. Yet we 
know that about 46 million children in Africa have lost one 
parent and over 10 million have lost both.
    The vast majority outside of family care do have parents 
and relatives, and there is a rich tradition of kinship care in 
Africa. So getting children into families and strengthening the 
ability of those families to care and protect is a significant 
critical priority in both our humanitarian and development 
programming.
    And to do so, our programs support families struggling to 
provide care for vulnerable children by connecting them with a 
range of help options, whether it is urgent material needs, 
financial needs, long-term family income generation, or access 
to health and treatment services. We aim to empower them to 
decide what is best for their families so they can care for 
their children.
    The third objective of the Action Plan on Children in 
Adversity is to protect children, particularly at an early age. 
Across the continent, we are targeting vulnerable children, 
including, as you have noted, child soldiers, street children, 
children accused of witchcraft, children lost in the legal 
system, children with disabilities, child laborers, and HIV/
AIDS orphans.
    A goal is to support children's reintegration into 
communities to help children and youth get the kind of life and 
vocational skills that can set them on a pathway, strengthen 
local groups in their ability to contribute to advocating for 
children's rights in their communities.
    We focus on providing safe spaces for children to heal, to 
learn; give parents and other caregivers time to address their 
own needs and those of their families. So this includes 
outreach, direct support for parents, and really tries to 
decrease the risk of family separation or child labor.
    Very importantly, we also focus on strengthening country 
systems. This is a key component of success, as we help local 
and national governments take a critical, more active role in 
supporting their own children.
    We know that if we don't focus on the child we lose the 
person. And we know that investments in a strong start for 
Africa's children are absolutely critical to lay a foundation 
for a healthy, productive future for Africa itself. So USAID 
remains very committed to meeting the needs of vulnerable 
children in Africa, while also reducing the root issues that 
create those conditions for conflict and abuse.
    We very much look forward to continuing the cooperation of 
the work across the U.S. Government, and especially with this 
subcommittee, in our shared commitment to promote healthy, 
resilient families and communities where children can thrive.
    Thank you.
    Mr. Smith. Ms. Lindborg, thank you very much for your 
testimony.
    [The prepared statement of Ms. Lindborg follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                              ----------                              

    Mr. Smith. Ambassador Jackson?

STATEMENT OF THE HONORABLE ROBERT P. JACKSON, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Jackson. Thank you, Mr. Chairman. And thank you 
for inviting me to testify on the Department of State's 
response to orphaned and vulnerable children in Africa.
    This hearing is very timely, coming just weeks before the 
U.S.-Africa Leaders Summit on investing in the next generation.
    The Department of State is committed to supporting children 
in adversity around the world, including orphaned and 
vulnerable children. This work is accomplished through the 
Department's diverse programmatic activities, diplomatic 
engagement, and policy development. We engage the expertise and 
capacity of multiple department offices and bureaus.
    At the outset, I wish to make clear that the State 
Department does not isolate African orphans in its advocacy for 
children in adversity, nor does the Department relegate its 
concern only to Africa. All regional bureaus, many functional 
bureaus, and the leadership of the Department are focused on 
this. It is a very high priority. And we closely coordinate 
this work with USAID and other U.S. Government agencies.
    Allow me to focus on some of the most prominent issues 
facing children in Africa, including AIDS, trafficking, and 
conflict, and how we are working in the Department and with our 
colleagues at USAID to help address these issues.
    It is estimated that there are 17.8 million children who 
have lost one or both parents due to AIDS, and 90 percent of 
them live in sub-Saharan Africa. The President's Emergency Plan 
for AIDS Relief is addressing the needs of orphans and 
vulnerable children through programs that mitigate the social, 
emotional, and economic impacts of HIV/AIDS on children and 
reduce their risk and vulnerability while increasing their 
resilience.
    These programs have kept children in school, maintained 
children in supportive family environments, kept children safe 
by working with governments to promote child-welfare system 
strengthening, including the prevention of child abuse, gender-
based violence, and social protection, and reduced barriers to 
HIV and health and nutrition services, to name a few. Over the 
last 4 years, more than 5 million children worldwide have been 
supported by PEPFAR's orphans and vulnerable-children programs.
    Second, conflicts in Africa, including those in the Central 
African Republic, Chad, the Democratic Republic of Congo, Cote 
d'Ivoire, Liberia, Nigeria, Sierra Leone, Somalia, South Sudan, 
Sudan, and Uganda, which you mentioned, have provoked an 
increase in the number of children recruited or used as child 
soldiers.
    We take very seriously the issue of unlawful recruitment 
and use of children as soldiers in government or government-
supported armed groups, as the Department is responsible for 
producing a list of these governments as mandated by the Child 
Soldier Prevention Act, CSPA.
    In accordance with that act, we continue to work with 
African governments to address child soldiers in their 
countries, encouraging the signing and implementation of joint 
action plans with the U.N. Special Representative of the 
Secretary-General for Children and Armed Conflict.
    We also support the work undertaken by UNICEF to 
demobilize, disarm, and rehabilitate former child soldiers. 
This year alone, UNICEF has secured the release of 1,000 child 
soldiers in the Central African Republic.
    We have seen that these action plans can be effective. The 
actions taken by the Government of Chad to remove children from 
the armed-forces ranks were so successful that a verification 
mission undertaken by UNICEF found no child soldiers at all, 
and Chad was not listed this year on the CSPA list or the 
Annual Report of the Secretary-General on Children and Armed 
Conflict.
    I have also seen firsthand how engaging with former child 
soldiers can make a difference. When I visited Liberia with 
Deputy Secretary of State Higginbottom in June, we met former 
child soldiers who had formed nongovernmental organizations and 
had created small businesses to help themselves and others 
reintegrate into society. One of these stressed the importance 
of healing, behavioral change, and economic opportunities, 
which underscored to me how crosscutting this issue is. 
Grassroots African efforts like this, people helping people, 
need to be encouraged and supported.
    Third, we know children can be vulnerable to international 
and domestic human trafficking, whether through sex 
trafficking, forced child soldiering, or forced labor. AIDS 
orphans, including those from Swaziland and Lesotho, are 
particularly vulnerable to exploitation. Children throughout 
the continent are exploited in domestic servitude, forced 
begging, and forced labor in a variety of sectors, including 
mining, fishing, cattle herding, and harvesting coffee, cocoa, 
and rice. Armed conflict and other instability, poor economic 
conditions, food insecurity, rural poverty, and lack of social 
safety nets can also leave children vulnerable to trafficking 
in Africa.
    Our Embassies in Africa do not just report on trafficking; 
they aggressively engage with governments and civil society, 
lobbying for anti-trafficking laws to be passed, for 
governments to prosecute traffickers, and for the protection of 
victims of trafficking, especially child victims.
    Protection is a critical component of the United States' 3-
P strategy for fighting trafficking in persons, the three P's 
being prosecution, protection, and prevention. Both the Africa 
Bureau and the Office to Monitor and Combat Trafficking in 
Persons fund victim-assistance programs that are designed 
specifically to respond to the comprehensive needs of child 
victims of trafficking. Beneficiaries are provided with safe 
and secure shelter, medical, paralegal, psychosocial 
counseling, and educational support. Furthermore, continuity of 
care is provided through ongoing case management and economic 
reintegration assistance to reduce the risk of re-trafficking.
    One of the pillars of the U.S. Action Plan for Children in 
Adversity is strengthening families. When efforts to keep 
families together fail, domestic and international adoption may 
be one way to help children who have lost parents. Orphans 
constitute a large vulnerable population in Africa, and it is 
important for us to ensure that they are adopted in an ethical 
and transparent manner in accordance with international norms.
    That is why we work with our Bureau of Consular Affairs to 
encourage countries to join and implement The Hague adoption 
convention to further ethical and transparent inter-country 
adoptions. Moreover, we have encouraged countries to align 
their child welfare systems and adoption practices with 
convention standards.
    In conclusion, Mr. Chairman, through a range of activities, 
the Department of State works to support education, security, 
social, and child welfare systems to provide humanitarian 
assistance and to develop capacity for governance, rule of law, 
and the protection and advancement of human rights across the 
globe.
    There are so many ways for us to help children in Africa, 
and it is important for us to work collaboratively to address 
the issue with a survivor-centered approach, pressing countries 
for laws to protect them, supporting efforts to implement those 
laws, and establishing protective services in conjunction with 
civil society. We look forward to continuing to work with our 
U.S. Government colleagues and with this subcommittee to 
address this important issue.
    I would be pleased to take your questions, and I thank you 
very much.
    Mr. Smith. Thank you very much, Ambassador Jackson.
    [The prepared statement of Mr. Jackson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. And let me just ask both of you, what are your 
time limitations? Again, we thought we would be in late last 
night, and then they unexpectedly ended the session, and now we 
have votes until about 3:45 p.m. What is your availability? 
Because I will ask some questions and risk missing the first 
vote. While you are figuring that out, I will just ask the 
first question.
    Ms. Lindborg, you mentioned, and I thank you for your work 
on the first 1,000 days of life, from the moment of conception 
to the second birthday. As you may or may not know, I have 
worked on child survival since my first term in 1982--I got 
elected in 1980--and have worked on it ever since, every year 
offering amendments to increase, you know, vitamins, increase 
especially the issue of immunizations and oral-rehydration 
therapy for those suffering diarrheal disease, and all the 
rest. But we now know beyond any reasonable doubt those first 
1,000 days of life are absolutely pivotal to a child, and I 
thank you for your work on that.
    My question is, compared to other children in Africa, are 
the orphans disproportionately left out of programs that 
include the first 1,000 days of life, which would mean that 
they will be healthier, have a better immune system, or at 
least immunity capabilities, or are there very special efforts 
made to include them?
    Secondly, you spoke about the failure to thrive. I remember 
being in Nicolae Ceausescu's orphanages right after his fall in 
Romania after being there many years, and all of a sudden we 
found 50 or 60 kids lined up, with one nurse or helper, and 
those kids were dying because they weren't even being picked 
up. And I am wondering if you could just maybe spend some time 
on the importance of, you know, this failure to thrive. I don't 
think enough people understand that.
    And, Mr. Ambassador, my first question to you would be: The 
DR Congo, what is the glitch there? What does the 
administration do to try to reverse it? And how quickly can we 
expect any results? Do we think we will have results soon, 
especially for the families that are waiting so desperately to 
get their children and to begin bringing them home?
    Ms. Lindborg. Thank you.
    On the efforts to include orphaned and vulnerable children, 
you know, there has been, fortunately, an important focus, 
through the efforts of this Action Plan for Children in 
Adversity, to make a special effort to reach out for orphans 
and vulnerable children.
    One of the challenges that we have, especially in conflict 
settings, is we don't always know where they all are or how 
many there are. So one of the things that we have been doing is 
working with partners to improve our understanding of what is 
the pool of need, how to get a better understanding of who is 
not being included in the program. So that is an important 
ongoing development.
    We also have a greater ability to target those who are 
orphans as a result of HIV/AIDS than those who are orphans 
through conflict or other means, simply because of the way that 
the funding is structured.
    Finally, on the failure-to-thrive issue, I mean, this is 
really heartbreaking, and it has led us to really work hard on 
the second objective of trying to deinstitutionalize children 
and get them into more nurturing environments.
    And there have been some very important successes on this. 
Like, for example, in Ethiopia, we have worked with the 
government. They did a review of all of their institutions, 
about 100 institutions, and they found that 45 of them were 
simply substandard. They closed them. And with USAID support, 
we worked to get those kids back into their families, in some 
instances, reunited, or with foster care or other places where 
they could get better care.
    This is probably one of the areas where we need to spend 
the greatest additional focus. We are very determined to 
increase our ability to do these kind of programs. And the 
evidence is just overwhelming that you really have to take a 
whole-of-child approach.
    So even as we have increased substantially our ability to 
feed children more nutritious food more effectively in those 
early days and work with pregnant and lactating women, we 
really need to keep focusing our attention on this second bit, 
on the failure-to-thrive issue.
    Mr. Smith. How is your time? And I know you have busy 
schedules.
    Ms. Lindborg. Well, I have a 3:30 that will be very hard to 
change.
    Mr. Smith. Okay. I understand.
    And how about you?
    Ambassador Jackson. I am available, Mr. Chairman.
    Mr. Smith. You are? Thank you, Mr. Ambassador. If you could 
hold that then, and if I could ask you one other question. I 
have a dozen, but we are out of time on the floor.
    I am the prime author of the Combating Autism Act. Started 
in 1997, it became law in 2000. Our reauthorization bill is 
pending over on the Senate side.
    One of the things that the IACC Committee, headed up by 
NIH, found was that if women are getting folic acid 3 months 
before and they are getting prenatal vitamins, in other words, 
even before they think they might become pregnant, that the 
impact on both mother and child is significantly enhanced, and 
it mitigates the possibility--it is not de facto, they haven't 
proven it, but they believe it does--of the issue of autism and 
a whole lot of other maladies that could occur.
    This is relatively new. And, you know, we have had 
hearings, we have another one in about a week or so, on autism 
globally here in our subcommittee.
    And the question is, is there an understanding that 
reproductive health ought to be inclusive? Very often, it is 
seen as, you know, no babies, how does someone go about not 
having a child, rather than how do we enhance the prospects of 
a healthier mother and baby.
    And now this new component of, if you start earlier, 
reproductive health, it means that your child is less likely to 
get autism. And tens of millions of Africans have autism, and 
it is an epidemic that parallels HIV/AIDS, but largely 
unrecognized and unfocused upon.
    Your thoughts?
    And when you are done with your comments, we will stand in 
recess, and I will have to read them. Be right back.
    Ms. Lindborg. So, first of all, thank you for, you know, 
your passion and commitment on these issues.
    The focus of the first 1,000 days is very much about 
reproductive health issues and ensuring that you have healthy 
mothers and healthy babies, both tackling the issue of ending 
the preventable death of children under 5 and also ensuring 
that, through better science, through better ability to have 
access to healthcare services, through better nutrition, that 
we are able to continue to make gains in this realm.
    So that is absolutely a strong focus through a whole 
variety of programs that we do that are focused on women who 
are in community situations as well as those who are in 
conflict environments where it becomes more difficult to 
provide those services but just as much of a priority.
    Ambassador Jackson. So, in terms of DRC adoptions, they 
were suspended last September due to the DRC Government's 
concerns about fraud, corruption, and potential child-buying 
and their lack of capacity to manage the adoption program.
    We have been engaged continuously since then. We have met 
with Ministers of Foreign Affairs; Interior; Gender, Family and 
Children; and the Minister of Justice. On May 4th, Secretary 
Kerry met with President Kabila and made a personal plea for 
him to lift the suspension. Subsequent to that, we were able to 
secure exit permits for a small number of children.
    Dr. Biden, the Second Lady of the United States, was in 
Kinshasa earlier this month. She also made a plea for new exit 
permits to be issued. And, this afternoon, some of my 
colleagues are meeting with the Congolese Ambassador at the 
State Department.
    So my basic message is that we remain very engaged in 
attempting to secure exit permits for these children, while 
supporting the Congolese efforts to strengthen their own 
internal controls to assure that children are being adopted by 
families who will give them loving, caring homes.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting.
    And I do want to welcome our distinguished witnesses and 
apologize profusely for that very long delay, which was 
attributable to votes. Like I said earlier, we thought that 
there were going to be a whole cluster last night and that we 
would have been relatively free today. That didn't happen, so I 
do apologize.
    We are joined by Congressman Steve Stockman, who, frankly, 
just led a delegation to Abuja, to Nigeria, and he has freshly 
returned. And thank him for his leadership on these issues.
    And I will now go to the introductions of our distinguished 
panelists, beginning first with Kelly Dempsey, who is the 
mother of three children, two of them adopted. She is an 
attorney, practicing primarily in adoption law in her own firm 
in North Carolina.
    After overcoming her own struggle to bring home her 
daughter, adopted from Vietnam, her legal practice expanded 
from civil litigation to focus on immigration issues with the 
international adoptions of children living abroad. Ms. Dempsey 
has represented hundreds of families in dozens of countries to 
ensure that the adoption process was completed and they were 
able to return home with their children.
    She also works to promote international adoption as a 
viable option for unparented children and to identify and 
implement solutions that enable more children to find 
permanent, loving homes.
    We will then hear from Ms. Shimwaayi Muntemba, who is from 
Zambia and founded Zambia Orphans Aid in the United States. She 
was instrumental in the creation of the St. Peter Claver 
Society for African orphans at St. John's Catholic Church in 
Virginia.
    She worked at the World Bank on Africa-related issues, such 
as microfinance, women's empowerment, and the environment and 
development balance. Indeed, it is because of her dedication to 
orphans affected by AIDS that she gave up her position at the 
World Bank to dedicate herself to this important cause.
    We will then hear if from Ms. Jovana Jones, who is part of 
a military couple who are adopting a 5-year-old Congolese girl 
who is several hearing-impaired. Her adopted daughter is 
currently residing in a very poor orphanage, and while they are 
being billed for her medical expenses, she and her husband are 
unable to take her home with them. The prospects are limited 
for the Joneses' daughter if she is forced to stay in the DRC, 
and they are afraid for her life and wellbeing.
    And, finally, we will hear from Muluemebet Chekol Hunegnaw, 
who is a senior director of Save the Children's global 
monitoring and evaluation and knowledge management unit. She is 
responsible for providing leadership for setting the vision and 
strategy of the monitoring and evaluation and the knowledge 
management system of its international programs in more than 50 
countries.
    She has more than 20 years of experience in international 
development and served as director of programs for the Africa 
region of Save the Children's South Sudan program. She also 
worked as a USAID mission monitoring and evaluation advisor in 
Ethiopia.
    And I thank you again for your patience and look forward to 
your testimony.
    If you could begin, Ms. Dempsey.

STATEMENT OF MS. KELLY DEMPSEY, GENERAL COUNSEL AND DIRECTOR OF 
            ADVOCACY AND OUTREACH, BOTH ENDS BURNING

    Ms. Dempsey. Thank you, Mr. Chairman. I first want to thank 
you for the opportunity to appear today before this 
subcommittee and to talk about an important tool of protection 
for the orphan child in Africa, and that specific tool is 
international adoption.
    I have prepared a written statement, and I also ask that 
that be entered into the record.
    Mr. Smith. Without objection, it will be made a part of the 
record.
    Ms. Dempsey. I am here on behalf of Both Ends Burning 
today, and we are a nonprofit advocacy organization dedicated 
to promoting and protecting every child's right to live in a 
permanent family.
    Family is the bedrock of our society. There is nothing more 
important in a child's life than his or her connection to their 
parents. When that connection is threatened, we need our 
foreign policies to help strengthen it. When it is severed, it 
should be repaired. And when it can't be repaired, we should 
help form a new connection, and that connection should be 
formed through international or domestic adoption, when 
possible.
    This is the central role, I think, of child protection and 
child welfare that is missing today in our foreign policies. 
Far too often, we relegate adoption to a simple immigration 
issue, and we are missing an opportunity to serve children 
well.
    Department of State, through the Embassies in Addis Ababa 
and in Kinshasa, as well as the Office of Children's Issues, 
plays a key role in international adoptions. However, instead 
of aiding American families and advocating for orphaned 
children, the Department of State has become an obstacle that 
must be overcome in order for children to come home to their 
families. Instead of engaging the foreign governments in 
partnerships that promote permanency for children, the 
Department of State instead institutes policies that slow or 
stop adoptions. Instead of engaging the American adoptive 
parents, their adoption agencies, and advocate organizations, 
such as Both Ends Burning, we are regarded as adversaries. This 
approach is damaging children, and we have seen it over and 
over again.
    I want to focus my remarks today on Ethiopia and the 
Democratic Republic of the Congo because those are the 
countries with which I have the most experience.
    In Ethiopia, in 2010, we saw 2,500 children come home to 
the United States. It was an all-time high and just barely 
touching the need that exists in that country. What has 
happened since is a 60-percent decline.
    And part of that is because, in 2010, when the growth was 
at an all-time high, the Department of State made the decision 
to try to close Ethiopia to adoptions. Luckily, there was 
resistance, and a team was sent in from USCIS and Department of 
State to investigate the problems that the Department of State 
believed existed in adoptions. And they reviewed more than 
4,000 cases, all of the cases that had happened in the prior 2 
years. And what that team found was that, overwhelmingly, these 
adoptions were good, ethical adoptions.
    They found a cluster of factors, when present, that would 
warrant further investigation, and they found that cluster of 
factors to exist in about 5 percent of the cases. Everyone 
walked away believing that when those factors were present, 
adoptions would be looked at more closely to ensure ethical, 
transparent adoptions.
    And, instead, what happened is the U.S. Embassy started 
putting files in a drawer. Instead of adjudicating cases, which 
is their mandate, they started putting files in a drawer. And 
what that meant for children is that they languished in an 
orphanage. They did not tell families, they did not tell USCIS, 
they did not tell the Ethiopian Government authorities; they 
simply put files in a drawer.
    Time passed. Families banded together, as they often do. 
They reached out to Members of Congress because you all have 
become necessary players in the adoption process. And we are 
very grateful for the work you do. And what was discovered was 
that these cases weren't being adjudicated.
    Another team went over from USCIS, and they conducted a 
review of those cases, and, in the end, all but one was 
approved. But what that cost families and children was anywhere 
from an extra 6 months to 1 year of their life, extraordinary 
financial expenses, and the emotional toll that cannot be 
repaid. And what has happened since then has been an 
astonishing chilling effect on international adoptions from 
Ethiopia--again, a 60-percent decline since the high of 2,500 
in 2010.
    Similarly, in the Democratic Republic of the Congo, we saw 
a period of growth. In 2010, there were 41 adoptions, and that 
number has slowly increased over the last few years.
    In 2013, unable to handle the influx of cases, several 
hundred, the Department of State, again, began seeking ways to 
slow or stop adoptions from the Democratic Republic of the 
Congo. They implemented a policy of 100-percent mandatory field 
investigations despite the fact that over 97 percent of all 
cases coming out of Democratic Republic of the Congo had been 
approved. So that is a 3-percent denial. I would say it doesn't 
justify the allocation of resources.
    And what they told families and what they told the 
Democratic Republic of the Congo was that that would lengthen 
the adoption process but it would ensure integrity, which we 
certainly all support. However, there was no increase in the 
allocation of resources, and, instead, there were 
unsubstantiated allegations of fraud.
    Shortly thereafter, the suspension that now exists went 
into place, and over 800 families became stuck in a process and 
over 800 children became stuck in orphanages, unable to come 
home to their families.
    And what we saw immediately following the suspension was, 
frankly, not much. The Department of State, instead of becoming 
advocates for these families and their children, instead of 
sharing their experiences of 90-percent approvals, began to sit 
quietly and to encourage the families to do the same. More than 
10 months passed, and, still, families are not getting answers 
to their questions.
    In April, recognizing the size of this crisis and the lack 
of response from the Department of State, Both Ends Burning 
became engaged in an advocacy campaign and Congress became 
engaged in an advocacy campaign. And we have had tremendous 
support, both from you and from this subcommittee and from the 
entire House, and we are very grateful for House Resolution 588 
that was recently passed.
    It is not enough to bring these children home. And so the 
families--I would like to acknowledge the ones that are here 
today. In addition to Ms. Jones, who will speak, we have 
families who are here.
    I also have affidavits from six of the families that I 
would like to be entered into the record, as well.
    Mr. Smith. Without objection, so ordered.
    Ms. Dempsey. Thank you.
    And what we learned from their affidavits and from these 
families is that there has been a total lack of response, a 
total lack of urgency, and a total lack of meaningful 
engagement to resolve this crisis.
    We ask for urgency to move forward in this and that we find 
a solution that allows these kids to come home before any more 
die. We are aware of 10 that have perished during the wait, and 
we believe that many more will. In fact, one of the 
affidavits----
    Mr. Smith. Perished from what?
    Ms. Dempsey. From waiting. I mean, dehydration, malaria, 
malnutrition, easily avoidable diseases, when they could have 
been home in this country.
    We have had siblings separated, biological siblings 
separated, due to errors at the Embassy. One kid is home; one 
kid is stuck in Congo waiting for processing and the suspension 
to lift. Really astonishing and outrageous tragedies that could 
and should be avoided.
    And so what I think is of paramount importance and what 
Both Ends Burning is advocating for and asking for is a foreign 
policy solution that creates a tool by which permanency can 
become a central tenet of child welfare and child protection.
    When I listened to the speakers earlier today, I didn't 
hear that. And, in fact, I didn't hear anybody talking about 
finding family solutions for kids when their own families and 
kinship care wasn't available.
    It shouldn't be relegated to a last-place idea. It should 
be planned for and advocated for so that children are getting 
their most basic needs met. And, today, in the Department of 
State, through the Office of Children's Issues and Consular 
Affairs, it simply isn't happening.
    I would be happy to answer any questions.
    Mr. Smith. Thank you so very much for that testimony, 
disturbing, extremely disturbing, as it is. And we will get to 
questions when our other panelists are concluded, but I thank 
you for that.
    [The prepared statement of Ms. Dempsey follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Muntemba?

STATEMENT OF SHIMWAAYI MUNTEMBA, PH.D., FOUNDER, ZAMBIA ORPHANS 
                            OF AIDS

    Ms. Muntemba. Good afternoon. I am a Zambian citizen, as 
the chair has said, who has personally been touched by the 
orphan problem, having lost 5 younger sisters and brothers, 
leaving a total of 11 children, some as young as 3 and 5.
    The good thing is that my nieces and nephews have helped me 
appreciate the orphan phenomenon and have spurred me to both 
focus on HIV and AIDS and social protection as part of my work 
and to be proactive in seeking assistance to reach those 
orphans whose families cannot provide for them adequately.
    We have heard that there are 56 million orphans in Africa, 
but this is an official figure. In Africa, official numbers do 
not capture all orphans. Many deaths occur in rural areas, and 
these are not recorded.
    The definition of ``orphans'' has also distorted their 
numbers. For example, to UNAIDS, an orphan should have lost 
both parents and is under 15 years of age. UNICEF'S definition 
embraces children zero to 17 years old who have lost one or 
both parents. African governments have adopted this definition.
    With so many armed conflicts raging in Africa, some civil 
society institutions--and I tend to agree with them--are 
advocating the definition to include abandoned and alone 
children. And these are many in most of the countries in 
central and western Africa.
    On the causes, we can identify five major causes of 
orphanhood in Africa: Armed and civil conflict, natural 
disasters, weak and unequal health systems, abject poverty, and 
HIV and AIDS.
    I have been asked to say a few words on HIV and AIDS. HIV 
and AIDS has hit eastern and southern Africa the hardest. 
Seventy percent of Africa's 15.1 million orphans of AIDS are in 
the eastern and southern subregions, most of them in the 
southern.
    But southern Africa reports the highest uptick of 
antiretroviral treatment in Africa. It leads national 
governmental budgetary allocations to HIV and AIDS. Yet, in 
2012, more infections and AIDS-related deaths occurred in this 
subregion. Orphan numbers have risen exponentially in the last 
2 decades and are poised to grow over the next few years and 
decades.
    The question is, why is this? I suggest that interventions 
seem to focus disproportionately on treatment and away from 
prevention. The gender dimension of HIV and AIDS and its 
treatment and the generational unequal access to treatment are 
impacting negatively on AIDS management outcomes. As well, 
poverty is undermining the effectiveness of treatment among the 
majority poor in most of our countries.
    A look at the impact on orphans: Children are firstly hit 
emotionally, as we have heard. When AIDS is the cause of death, 
stigma affects younger children within their communities and at 
school. Children have lost educational opportunities either 
because caregiving families are too poor or are not near 
schools.
    Another impact has been that of abuse in hosting families. 
In such situations, girls are treated as indentured labor and/
or sex objects.
    Another is the phenomenon of child-headed households, some 
heads as young as 7 years old but many around 10 and 11. Those 
heads who contract HIV are hardly on treatment.
    Response: I wish to focus on two groups, close or extended 
family members. Initially, they responded positively, but as 
orphan numbers grew alongside entrenched poverty, families 
became overwhelmed. Today, many extended families have 
difficulties taking on that responsibility. And this is why I 
am very much touched by what is being tried in the way of 
adoptions. What was normal in our cultures in Africa has become 
a burden to many.
    Second, within the international community, Africans in the 
diaspora have responded by mobilizing financial and technical 
support in the countries where they live and work. I will give 
two examples from the Washington area.
    In 2000, supported by former Ambassadors and Embassy staff 
in Zambia and other African countries, we formed Zambia Orphans 
of AIDS, now Zambia Orphans Aid. We now operate in the UK as 
well and are registered in Zambia. Through community-based 
organizations and community schools, we have reached over 
10,000 orphans--a drop in the ocean, perhaps.
    In 2004, St. John Catholic Church in McLean, Virginia, 
formed the St. Peter Claver Society for African Orphans. 
Through four institutions in Kenya and Zambia, the Society has 
assisted many orphans in Kenya and Zambia over the last 10 
years, offering them the means for HIV testing, for being 
looked after by physiotherapists, for access to education, and 
for general food and nutritional needs.
    In both cases, individual Americans have rallied in support 
of the orphans. But I must underline, though, that despite the 
goodwill and hard work, the demand outstrips the supply. What 
then, Mr. Chairman?
    Previous contributions from him and probably from her may 
offer some of what we have to look at. But I feel that there 
are other opportunities for a minimum humanitarian response.
    Number 1) greater political will is needed at the national 
level on behalf of orphans.
    Number 2) higher-education funds are needed for orphans, to 
include technical and entrepreneurial skills training, 
specifying a proportion for girls.
    Number 3) cash and in-kind support for child-headed 
families need to be intensified, but--and I underline this--for 
a specified timeframe, after which alternative care options 
must have been identified and offered to the children. However, 
this support must be flexible enough to respond to the shifting 
orphan care priorities.
    I thank you for offering me the opportunity.
    Mr. Smith. Ms. Muntemba, thank you so much for your 
testimony.
    [The prepared statement of Ms. Muntemba follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Jones, if would you proceed.

STATEMENT OF MRS. JOVANA JONES, ADOPTIVE MOTHER OF A CONGOLESE 
                             CHILD

    Ms. Jones. Yes. Thank you for having me here.
    We first saw our daughter, who we will name Ana Lei when 
she arrives, we first saw Ana Lei in April 2013 on a special-
needs adoption Web site.
    We decided early on to adopt an older child internationally 
with a hearing impairment because we read many cases where deaf 
older children are often overlooked and grow up without a 
language or the ability to communicate.
    A few months ago, we were pleased to hear that Ana Lei's 
orphanage was within walking distance from a school, only to be 
disappointed that she was unable to attend and learn with the 
other children because of her hearing impairment. The idea of 
being trapped inside your own mind, frustrated with the 
inability to express your thoughts and feelings and ostracized 
from your friends--it is heartbreaking to even think about.
    My family and I are the solution, if just for Ana Lei. We 
are willing, able, and ready to bring this princess into our 
home, to give her endless opportunities to love, communicate, 
share her dreams, fears, and excitement.
    I love to educate myself in what would be her first 
language, American Sign Language. Over the last several years, 
I have taken courses and volunteered at Gallaudet, the deaf 
university just minutes from here. My family has participated 
in deaf events and attended deaf church services--anything we 
can do to immerse ourselves and increase our knowledge and 
skills in the deaf culture.
    We also attend adoption conferences and take prep classes 
for adoptive parents so that we are fully aware of the good, 
bad, and ugly for when Ana Lei comes home.
    Our children have been eagerly waiting, especially our 
biological daughter, for their sister to come home so they can 
have tea parties, show her dance moves, and sign bedtime 
stories. As a family, we enjoy signing during meal times, using 
captions whenever we watch TV, and having a weekly movie time 
where we watch an all-deaf, 30-minute educational kids show.
    We homeschool our children, and we have Ana Lei's school 
desk and preschool supplies ready for her when she comes home. 
I have read books about teaching deaf children and have an 
awesome support group of moms homeschooling their deaf 
children.
    My husband and we have been an Active Duty Air Force family 
for over 15 years. For the last 3 years, we have made it our 
mission to prepare financially and logistically for this 
adoption. We have sacrificed family vacations and held several 
fundraisers for this costly adoption. Our church was 
instrumental not only in giving but also in emotional and 
spiritual support.
    Painstakingly but gratefully, we have raised all the funds 
needed for the adoption. We have bought furniture and prepped 
and painted Ana Lei's room. As a military-trained technician, 
my husband has planned to upgrade and install strobelight smoke 
detectors, doorbell signals, and other home devices for the 
hearing-impaired.
    The nearby military bases will also offer family support 
through classes and workshops. And with the natural diversity 
that the military brings, our Congolese-American daughter will 
blend right into play groups, sport teams, and homeschool 
groups.
    We are more than ready for Ana Lei's arrival. After years 
of studying, enduring financial burdens, not to mention the 
countless hours of reading, completing, and mailing reams of 
adoption forms, indeed, my family has sacrificed much. We 
realize, though, that our hardship is well worth Ana Lei's 
education, her happiness, and her life.
    As adoptive parents, we have spent years preparing, and it 
is imperative that our children come home immediately. We have 
done our part. Our families have done all we can, and we are at 
our limit. We boldly ask for the backing and the support of our 
President, our Congressmen, and our elected officials, that you 
all draw your focus on removing any further delays of the 
adoption process within the countries of Africa.
    We sincerely appreciate the efforts that have been made 
thus far, but, frankly, it is not enough. It is not enough 
until we have each orphan home with his or her American family. 
Each moment of delay makes it more difficult for them to adjust 
and more challenging for the parents to provide care.
    Our arms are open now, and our homes are ready to receive 
them today. We pray that our Government mirrors our dedication 
and does its due diligence to bring our children home.
    Thank you.
    Mr. Smith. Ms. Jones, thank you very much. I pray that also 
and hopefully we will all do our due diligence and accelerate 
our efforts on your behalf and all the others have that have 
been left behind, so thank you very much.
    [The prepared statement of Ms. Jones follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Hunegnaw? 

 STATEMENT OF MS. MULUEMEBET CHEKOL HUNEGNAW, SENIOR DIRECTOR, 
   MONITORING & EVALUATION AND KNOWLEDGE MANAGEMENT PROGRAM 
QUALITY AND IMPACT DEPARTMENT, INTERNATIONAL PROGRAMS, SAVE THE 
                            CHILDREN

    Ms. Hunegnaw. Thank you.
    On behalf of the Save the Children, I thank you for the 
opportunity to testify today on this critical issue and request 
that my full statement be submitted for the record.
    Save the Children is a nonprofit, child-focused 
organization working in the U.S. and in more than 120 countries 
and is considered a global leader in humanitarian and 
development assistance. We build capacity for countries to 
deliver and provide support for health, education, protection, 
and disaster relief services for more than 125 million children 
every year.
    We are on the ground in countries across Africa, 
programming and advocating for those policies, programs, and 
funds that strengthen families and government systems to care 
for children. There are a range of factors that drive the 
vulnerability of orphans and children throughout Africa, 
including HIV/AIDS, maternal mortality, conflict and violence, 
and extreme poverty.
    The term ``orphan,'' consistent with PEPFAR's definition, 
is defined as a child who has lost one or both parents. In 
almost all cases, the other parent or close family members are 
alive and present in a child's life. Throughout Africa, kinship 
care is a powerful and important concept.
    In this testimony, I will highlight and elaborate on four 
approaches that are key to an effective U.S. response to 
protect and support these children: First, strengthening 
families who are the frontline support systems for children; 
and, second, strengthening protection systems which can address 
the range of needs for families and communities; and, third, 
addressing the growing problem of children becoming the 
caretakers; and, lastly, continuing to develop better 
strategies for supporting children in families who are affected 
by conflict.
    The crisis of Africa's orphans has been fueled over the 
last 15 years by HIV/AIDS, altering more than 20 million 
children's lives through loss of a parent or being infected 
themselves. In addition, their situation is compounded by 
threats associated with armed conflict and terrorism, including 
trafficking, sexual violence and exploitation, abduction, and 
recruitment into armed forces. With weak child-protection 
systems in many African countries, children are becoming more 
vulnerable, especially in countries affected by ongoing 
violence and conflict.
    Orphans and vulnerable-children services include holistic 
care and support services per OVC guidance, including 
psychosocial care and support, household economic 
strengthening, social protection, child protection, education, 
and health and nutrition. Strengthening the systems that 
support vulnerable children and families ensure that children 
who are infected with HIV receive the support they need and 
that children who are affected do not become infected as they 
grow up.
    One element of OVC programming that we are increasingly 
focused upon because of the success and importance is 
strengthening families. Looking at the child in the context of 
his or her family and community has shown to be the most 
effective approach and indicates the need to further integrate 
those programs that address the needs of children and their 
caregivers holistically, including maternal and child health, 
HIV/AIDS treatment, home-based care, economic resilience, and 
child protection. We understand the role that strong families, 
including extended families, play, ensuring that children can 
grow and develop healthy and reduce the risk of harm to 
children.
    Another positive trend in orphans and vulnerable-children 
programming is an increased awareness and focus on the value of 
social protection to support Africa's orphaned and vulnerable 
children. Strong social welfare systems are critical to 
ensuring that investments to mitigate the impact of HIV/AIDS 
and poverty on Africa's orphaned and vulnerable children are 
sustained.
    Our work builds the support for vulnerable children within 
their own communities, assisting them in getting protection, 
food security, economic strength, and access to basic health 
and education. We identify children who are orphaned and 
vulnerable and link them to an appropriate service that meets 
their needs.
    A challenge but critical component of OVC programming is 
support for the needs of children as caregivers. Evidence shows 
that children in Africa, most of them become the dominant 
caregiver to family members when living with HIV/AIDS-infected 
parents who have chronic illness and may be approaching death, 
caring for increasingly frail grandparents, or leading 
households and caring for young siblings. The precise scale of 
child-caring remains unknown but is likely to be widespread and 
impacts many parts of their lives, including their ability to 
get an education.
    Finally, one of the biggest challenges for OVC programming 
for an implementer is protecting and supporting children 
located in conflict-affected or fragile states. For these 
children, the already difficult circumstances and complexity of 
needs is compounded with the fragility, uncertainty, and unsafe 
environment.
    In these areas, Save the Children has seen a rise in sex 
trafficking, street children, and children being placed in 
institutions. This presents a significant child-protection 
concern, as these children are often without the guidance of an 
adult caregiver, and the situation is compounded by increased 
exposure to threats associated with armed conflict. With child-
protection systems weak or completely destroyed due to 
conflict, protecting orphans living in fragile states is 
complex.
    Looking forward, Save the Children would welcome the 
subcommittee's support to address the plight of orphans and 
vulnerable children in Africa, and we would like to highlight 
two areas where congressional involvement would have a powerful 
impact on children's lives.
    First, Save the Children is a strong supporter of USAID's 
2012 OVC guidelines and their comprehensive approach to care, 
including child protection, education, health care, and early 
childhood development and family strengthening. We are 
profoundly appreciative and supportive of the funds that 
Congress included as a requirement that programs for orphans 
and vulnerable children continue to be 10 percent of all PEPFAR 
program funds. Any dilution or reduction of those funds or 
commingling of those funds with those for treatment should be 
discouraged, and it would threaten our ability to provide this 
essential service for children.
    Second, we strongly support the codification of the whole-
government Action Plan for Children in Adversity. The action 
plan and its primary three objectives--strong beginnings, 
protective family care, and reduction of violence against 
children--are all goals that I hope we can share. Codifying 
these priorities through legislation would support a more 
comprehensive approach, encourage efficiencies and coordination 
across government agencies, shared outcomes, and 
accountability.
    In conclusion, we thank the subcommittee for its continued 
leadership on U.S.-African global issues and would like to 
continue to be a resource for you in the future. We ask for 
your continued partnership with us to invest in children so 
that they have what every child deserves: The right to not just 
survive but thrive.
    Thank you.
    [Ms. Hunegnaw's prepared statement was submitted after the 
hearing and appears in the appendix.]
    Mr. Smith. Thank you so very much, Ms. Hunegnaw. Let me ask 
you a question with regards to--does your organization consider 
adoption a form of protection?
    And I say that because there is a huge gulf between people 
who view adoption, inter-country adoption especially, as a form 
of human trafficking, which I find absolutely unconscionable.
    And I can give you an example. When Romania ended its 
inter-country adoptions--I mentioned earlier that I had worked 
on human rights vis-a-vis Romania from my very first days in 
the U.S. Congress in 1981. And when Nicolae Ceausescu lost his 
reign of terror as the President of that country, unelected, 
huge numbers of orphanages were discovered where kids were 
literally abandoned. And adoption flourished, on and off, but 
it did flourish, and there were a large number of inter-country 
adoptions.
    A woman by the name of Lady Nicholson, who was the 
rapporteur for the EU in terms of ascension into the EU from 
Romania, made it very clear that a prerequisite for ascension 
into the European Union was an end to inter-country adoption. 
And she construed all inter-country adoptions as a form of 
human trafficking.
    And I would note parenthetically, as the author of the 
Trafficking Victims Protection Act of 2000, the landmark law to 
combat human trafficking at home and abroad, I take a backseat 
to no one in my absolute abhorrence of human trafficking. And 
that is why The Hague Convention was formulated as a way of 
facilitating it's end.
    But I am just wondering if your organization does look at 
adoption as a form of protection for children.
    Ms. Hunegnaw. Thank you.
    Save the Children supports enabling families to care for 
children. We believe unnecessary separation of children from 
their families should be prevented.
    Mr. Smith. Yes.
    Ms. Hunegnaw. We promote appropriate and permanent family 
care for children. But we believe that inter-country adoption 
should be an option only when it follows the standards and 
regulations contained within The Hague Convention.
    Our primary focus is making sure that children are cared 
for in a family context, as much as possible in their country 
of origin, and inter-country adoption is taking up only as an 
option when that is not available.
    Mr. Smith. Mr. Stockman wanted to comment, and then----
    Mr. Stockman. Yeah----
    Mr. Smith [continuing]. Ms. Dempsey, I think you might want 
to----
    Mr. Stockman. Yeah, go ahead.
    Mr. Smith. Or----
    Mr. Stockman. Well, I have, actually, a question for Ms. 
Dempsey.
    Ms. Dempsey. Yes?
    Mr. Stockman. And I get to ask this because it is asked of 
me, quite frankly, often, because we shipped medical supplies 
to DRC. In fact, one of the most dangerous trips I think I ever 
took was from Brazzaville to Kinshasa on that little boat.
    And I am wondering, what motivated you to get involved in 
this? And how often do you go to Africa? And how do you 
describe your personal experience?
    Ms. Dempsey. I come to this work as an adoptive mom. And 
overcoming the obstacles I encountered in my own Government to 
bring my daughter home from Vietnam is the reason I do this 
work. I came, realizing that there was a deficit in advocacy 
for families, and I shifted my practice, frankly. And it has 
become my life's work to help bring orphaned children into 
families when they need it.
    The DRC crisis started in September, and at Both Ends 
Burning we were monitoring it. And when it became obvious to us 
that the Department of State wasn't meaningfully engaged--and 
the way that it became obvious to us was that they couldn't 
even tell us how many people were impacted, how many children 
were impacted, how many sick kids were at risk, they couldn't 
give us basic information--we decided that we needed to step in 
and help the families become organized and advocates for 
themselves.
    So my interest is in helping these families. I come to this 
work from a very personal commitment to kids, but it has become 
my life's work.
    I haven't actually traveled to Africa. I hope to do that 
very soon. So most of our efforts have been focused on engaging 
Members of Congress and the administration to help Department 
of State find its way to make this an urgent humanitarian 
crisis and find a solution to it.
    Mr. Smith. If my friend would yield?
    Mr. Stockman. Yes, I will.
    Mr. Smith. We have with us today Whitney Reitz from the 
USCIS, who actually did the investigation of Ethiopia when 
those allegations were made. She led the interagency delegation 
to Addis Ababa in early 2011. She reviewed many cases on site 
at the Embassy and then analyzed a database of over 4,000 
cases.
    And her team's finding was 75 percent of the cases were 
clean and nonproblematic, 25 percent had problems generally of 
a clerical nature, and just 5 percent presented factors that 
would warrant a closer investigation, which, clearly, indicated 
a far better record than the holdups and for the lack of 
responsiveness would indicate and, of course, I would say on 
behalf of our subcommittee, we are very grateful for the work 
that you did on that, Ms. Reitz.
    But you say, Ms. Dempsey, in your testimony, again, getting 
back to Kinshasa, that when the numbers exploded--``explosive'' 
was the word you used--from a handful to several hundred of 
adoptions in the DRC, that their inability to handle the 
casework led to mandatory field investigations for all cases.
    Were there other proximate causes? Were they genuinely 
concerned about other mitigating factors that might say there 
is a problem here? Or was it just a matter of this slows the 
process?
    Ms. Dempsey. Well, I wish they were here to answer that 
question. I----
    Mr. Smith. Well, you know, before you answer it, we did 
invite the Office of Children's Issues to be here. And we have 
turned this hearing into part one of a two-part hearing 
process. We will invite Ambassador Susan Jacobs to be here. She 
has testified before my subcommittee on previous occasions, 
particularly as a relates to child abduction.
    And I would note parenthetically, I have a bill that is 
pending in the Senate right now that passed on December 11th in 
the House which the Department seemingly was against--Secretary 
Kerry changed that position, and now they are for it--on child 
abduction, another hat that the Office of Children's Issues 
handles.
    And it was all from what I learned in dealing with the case 
of David Goldman, whose child was abducted to Brazil. Five 
years later and a whole lot of mistakes later, he finally got 
his son back. So it incorporates all the lessons learned there.
    And I think we need to be moving even more aggressively 
forward on this issue of child abduction, as well, so that we 
can get this right. So if you could maybe speak to that.
    You also testified that there was a lack of resourcing. And 
if you have any idea of how many resources need to be deployed 
here. And any of you might want to speak to that.
    And you also brought up the issue of where the central 
authority should be housed. And that was a big issue in the 
year 2000 faced by Congress; do we go to HHS, or do we go to 
Department of State? I am not sure that should be revisited, 
maybe it should, but if you could speak to that, as well.
    Ms. Dempsey. Well, those are a lot of questions, and I will 
try to do my best to answer them. Please let me know where I 
fail, because I certainly will.
    With respect to the Department of State's motives in 
implementing the 100-percent mandatory field investigations, it 
is my understanding that they deemed the growth itself to be 
problematic, and nothing more than that.
    And that is a tried-and-true tactic that we have seen from 
the Department of State. Any time a program experiences growth, 
what you and I would regard as a success for children is deemed 
a problem at the Department of State Office of Children's 
Issues and in the U.S. Embassies. And they start to view every 
case with suspicion and mistrust and looking for bad actors and 
bad actions.
    And while we certainly want them to make sure that these 
cases are ethical, transparent, well-done, that the kids are 
legitimately orphans in need of permanent families--we expect 
that of them--what we know is that they don't use the right 
tools to do that. And, instead, what they are doing is slowing 
down a system and engaging with foreign governments and 
adoptive families in a way that is, frankly, offensive and 
ineffective.
    So I look forward to the second round of this, and I look 
forward to their questions on that specific issue.
    With respect to the Office of Children's Issues as our 
central authority, what I can say based on the numbers and my 
personal and professional experience with them is that they are 
failing children. They are failing children in need, and they 
are not advocating for permanent solutions for children.
    Part of that is that their mandate is too narrow, I 
believe. They are tasked with enforcing Hague, promoting Hague, 
and that becomes an inherent conflict of interest in non-Hague 
countries. And our Hague expectations are perhaps unrealistic 
in developing nations, who simply lack the infrastructure and 
resources to integrate all that is necessary to become a 
partner under Hague.
    And so what I would suggest is that we engage them in 
collaboration and we help them build systems that work and 
serve children well, instead of pointing fingers and making 
accusations and allegations that are unsubstantiated. And that 
is what we are doing today.
    So I believe Children in Families First, the pending bill, 
does a very good job of addressing the solution. It removes the 
Office of Children's Issues from primary responsibility for 
child protection and child welfare, and it would create a new 
office to do that. Both Ends Burning fully supports it. We are 
a member of the working group, and we would like to see that 
legislation move forward as quickly as possible.
    I don't think that is the solution for the DRC kids today. 
I think that will take too long, and we can't make the 
fundamental change that is necessary. And so what we are 
looking for from Congress on the DRC crisis is immediate 
intervention at the highest levels and reaching out to DRC in 
the way that the Department of State has failed to do.
    Mr. Smith. Would anyone else like to address that?
    And in the case of Kinshasa, was there, in your opinion, 
Ms. Jones perhaps, how long before they informed you of the 
tardiness of this process?
    And you mentioned, Ms. Dempsey, the Department of State 
could and should have been actively involved from the moment 
the suspension went into effect to find a solution. When did 
they get involved?
    Ms. Dempsey. Well, they announced it 2 days after it went 
into effect. So they issued an alert. It wasn't until June that 
they asked families with sick kids to come forward and to 
provide medical records and to identify themselves. That is 9 
months after the adoption crisis began. That is 10 children who 
perished in the meantime. And that was only after Congress 
called on them to make that happen. It wasn't until May that 
they could provide anybody, in Congress or otherwise, with the 
number of families who were involved in this crisis.
    And so they claim to have been actively engaged from the 
start. I would suggest the results tell us otherwise. It wasn't 
until Congress issued a mandate and sent a letter to President 
Kabila that we saw the few kids that have come home come home.
    And while we celebrate every victory and we are so grateful 
for the 21 children who have come home, there are hundreds more 
waiting, and we can't rest on that and consider ourselves 
victorious. We have a lot of work to do.
    Mr. Smith. Did you want to respond, Ms. Muntemba?
    Ms. Muntemba. Yeah, Mr. Chair. I think I want to--I am very 
interested in this subject, but I want to underline that for 
Africa, really, adoption is very, very much a new thing, and it 
is in its infancy.
    And in terms of addressing the problem of orphans as it is 
now, we can obviously bring that in, but there are so many more 
issues that we are struggling with at the moment, that people 
are trying to deal with. For example, what she says there. 
There is so much push on let families look after their kids, 
not adoption, not orphanages, not this and that, and yet we are 
not helping these families. So I would like to know, what are 
we doing to strengthen this?
    What I know and my research has shown me, the extended-
family system is really breaking down in Africa. So if we want 
these kids to be with families, to be in the family 
environment, we have to strengthen them. What are we going to 
do about that?
    Because adoption, unless you really, really push it, it is 
very--I mean, I adopted my sister's son, and it wasn't easy for 
me. As an, in my culture, I would say mother, older mother, it 
wasn't easy for me to bring him here. So, I mean, it is not a 
solution that we can see in that next 10, 20, 30 years.
    But the breaking down of family systems is where I think we 
have to push for your help at the moment. What can you do to 
push African governments to help at that level?
    Mr. Smith. None of us ever said that adoption was the only 
solution; it is just part of a comprehensive approach.
    I will never forget, 10 years ago, a decade ago, Greg 
Simpkins, who is our staff director on this subcommittee, and I 
were in Addis Ababa and went to an AIDS orphanage, and we had 
five kids on each arm as we walked through the place. Big 
smiles. Just kids looking for a place to go. And we know that 
some of those kids were not adoptable because it was an 
economic and--you know, the extended family could not care for 
these AIDS orphans.
    But it underscored to me--and this is an experience I will 
never forgot--the desperate need for affection and love and a 
stable home where they could grow up in.
    And the people who ran it were obviously absolutely 
committed. It was faith-based. It was backed by USAID. But, you 
know, there was only so much they could do.
    But it is just part of the solution. None of us are ever 
saying this is a panacea. But your point is well-taken.
    Mr.----
    Mr. Stockman. Yeah.
    Ms. Jones, can I ask a question? Two things. You mentioned 
you would take her to church. And are you from here locally, 
and which church is it?
    Ms. Jones. No. My children--we have never met our adopted 
child.
    Mr. Stockman. And which country?
    Ms. Jones. So she is from DRC, so she is from Congo, so we 
have never met her before. But we are just preparing to have 
her here, so we do attend different services, you know, that 
have deaf children and deaf services.
    Mr. Stockman. Yeah, I have a deaf staffer on staff. But I 
am wondering, when I was over there--and I guess, have you 
been--you obviously----
    Ms. Jones. We have never been.
    Mr. Stockman. Okay. Well, I was wondering--I am actually 
going to ask the committee on this--have any of you been to 
DRC?
    Because the problem there is just more than--there are a 
lot of problems there. It is very problematic in so many ways. 
It is the size of Western Europe; it is a very large country. 
And in the eastern half, there is guerilla warfare, on and off 
for many years, so many people have been killed there. And the 
government seems to be thriving on bribes. When you leave, they 
ask for money. So it is inherently a challenging country, not 
just for adoptions but even for travel.
    And I am wondering if you could tell the committee or us 
what you think we could do to facilitate more pressure on the 
government. Because I understand that the President actually 
will be here in about 2 weeks, so I will bring this topic up 
with him. But I also think he is probably meeting with the 
chairman.
    Are you meeting with the--yeah, well, he is coming here in 
2 weeks. Yeah.
    So I guess my question to you is, what message would you 
like us to carry to the President?
    Ms. Jones. I would like to say that, you know, that we--you 
know, there are a lot of criteria that the adoptive parents 
have to go through. And we are going through each one, even if 
there are new things that are brought to us after we have 
finished, you know, 6 pages and 30 pages of, you know, 
different forms. You know, so we are doing all that we have to 
do.
    And so we just want to, I guess, have things--you know, get 
things in writing, you know, to say, okay, well, these parents 
have done this. You know, there should be no reason why these 
kids are waiting. So we need explanation on why we are waiting.
    I think one thing that we have to do, we have to pay for 
when the children come home. Our agencies have to come out and 
do post-adoption and make sure that the kids are happy and we 
are taking care of them and we are doing what we said we were 
doing. And so then I asked our agency, I said, well, if we have 
to do these things and we are paying for this service, why is 
it a question to the other country? And then she says to me, 
well, they never see the post-adoptions; that is only for the 
agency.
    So if there is any way that we can or the President can 
make sure that all the post-adoptions that we are paying for, 
all the pictures and the questions that are being asked, if we 
are taking care of them, if they are happy, if they are 
thriving, you know, can those countries, can DRC, can they have 
that information? Is there any way that they can have that 
information so that is not a question so that is one less thing 
that we have to worry about?
    Mr. Smith. Let me, if I could, Ms. Dempsey, you made a 
point that adoptions have declined 69 percent over the last 9 
years and that the Department of State has simply continued in 
its primary role as gatekeeper instead of building a base of 
child welfare and child protection expertise.
    We know that Russia obviously cut off adoptions in 2012, so 
included in that figure would be--you know, we still had 
countries of origin that were willing to provide a means of 
adopting children. That number, you know, a cynical take on 
that would be that there might be a bias against adoption. What 
is your take on that? Is it a lack of----
    Ms. Dempsey [continuing]. Being cynical.
    Mr. Smith [continuing]. Foreign Service Officers having too 
many cases?
    On the child abduction case, parenthetically, and in a 
parallel fashion, in hearings that I held here with the Office 
of Children's Issues, a big question I would often ask is, what 
do you do with the files? What kind of action, advocacy do you 
take to make sure things actually happen, particularly when 
there are obstacles strewn in the path of an adopting parent 
or, in that case, an abducted child and a left-behind parent? 
What do you do to really navigate that and make sure the 
country is facilitating it with their government authority so 
that, you know, children are protected but, you know, these 
delays, interminable delays, are overcome?
    Ms. Dempsey. We have seen a tremendous decline in the 
number of adoptions. Part of that is attributable to the 
sending countries' unilateral decisions, as we saw in Russia. 
China has a concentrated effort to reduce the number of 
adoptions, and it was a large sending country.
    But we have also seen programs close for reasons that I 
have already discussed. Similar to what we see in Ethiopia and 
what we see in DRC, Nepal closed in 2010, and that was a 
decision made by the Department of State and USCIS. Absent a 
statutory mandate to do so, they suspended the processing of 
adoptions, closing the door to hundreds, if not thousands, of 
orphaned children based on suspicion.
    I will tell you that that program closed under allegations 
that all the children were trafficked. All 56 cases in the 
pipeline at that time were investigated, and not a single one 
of them had been trafficked. Every single one of them was a 
legitimate orphan, and every single one of them now lives here 
in the United States. We are now approaching the fourth 
anniversary of the closure of that program, and it remains 
closed, inexplicably.
    And so I would say that there is a bias against 
international adoption in the Department of State and that 
child welfare and child permanency is not on the dance card of 
the Office of Children's Issues. Instead, they are focused on 
processing cases and doing so in a way that slows the process 
for families and children.
    Mr. Smith. Anything else?
    Yes, ma'am?
    Ms. Hunegnaw. Thank you. I just wanted to answer. We are 
gathered here to talk about the Africa orphan crisis. It is a 
crisis because millions of children are in this state now--and 
I do personally agree, sincerely appreciate that inter-country 
adoption may be one option to address this issue.
    But in terms of looking at the magnitude of this crisis, 
Save the Children believes in looking at a systemic approach to 
this, focusing on families, and especially in Africa, where 
kinship care is the system and the custom. What we focus on is 
what is in the best interest of the child and how we prepare 
these families, who are already overstretched, from meager 
resources to care for an additional child, an additional family 
member in their families.
    So I would like to just highlight again those two focus 
areas that I have made in my earlier comment that resources--
Congressman, you mentioned about what kind of resources are 
needed. I think protecting the commitment is very much 
important. We do appreciate the commitment that is already 
made, but protecting that commitment and increasing those 
resources to help us support those families to protect the 
children is very important, and also looking at the holistic 
needs of those children, because of the magnitude that we have 
in Africa today.
    Mr. Smith. Thank you.
    Ms. Jones, if I could ask you--first of all, thank you for 
your service to the Air Force and to this country. As you point 
out, 15 years, you are an Air Force family.
    You point out that, ``My family and I are the solution, if 
just for Ana Lei. We are willing, able, and ready to bring this 
princess into our home to give her endless opportunities to 
love, communicate, share her dreams, fears, and excitement.'' 
And you talk about the hearing impairment and how, you know, 
you want to make the difference in her life to really help her 
with that.
    Has that impairment grown worse? If you could elaborate on 
that. Because delay is often denial, and even though she is not 
as young as some others who are adopted, when it comes to a 
medical or any other condition, delay can mean further 
impairment that does not get turned around.
    So if you could just speak to that issue, and anyone else 
who would like to touch that--again, the idea that if the care 
is not being provided and your home is ready, willing, and able 
to provide it, that seems to be a huge setback for the child.
    Ms. Jones. Yes. As I mentioned, you know, she is deaf. And 
the orphanage there has a school within walking distance, and 
these children are learning English and they are learning basic 
skills just so that they can have some type of skill. And so, 
for her, she doesn't have that option.
    We don't get updates of how great she is doing. The only 
time we get an update is when we get invoiced when she is sick 
with malaria or she has a toothache that needs to be paid for. 
So those are the only updates that we get.
    Our agency let us know, when we bring our home, she will be 
on the developmental level of an 18-month-old. Even though she 
is 5 on paper, we believe she is about 7, but there is--I want 
to say there is no hope for her. She understands how to walk, 
talk, and use--I mean, walk, use the bathroom, and gesture of 
what she wants but cannot fully communicate.
    We send picture books over, and we have pictures of her 
looking at our family book and videos, but she has no clue. 
When she waves--she repeats what she sees. And she would wave 
the whole video until someone takes her hand and put it down. 
And she just has this look of, ``I don't know what is going 
on,'' you know?
    So she needs to be home so that she can begin to express 
herself and let us know what her needs, her wants are. And she 
is just not getting that there.
    Mr. Smith. Yes?
    Ms. Dempsey. I would just like to add, with respect to the 
children who are ill and life-altering conditions, life-
threatening conditions, the DGM recently announced last week 
that they would not consider the medically fragile cases 
anymore. And the Department of State's response to these 
families was, too bad, you just need to sit and wait until the 
suspension is lifted.
    And I would expect more urgency from them. On behalf of 
these children, on behalf of these families, I would expect 
them to say, we are going to be doing everything in our power 
to change or reverse this decision so that more children don't 
die.
    I know I don't need to remind you, but I want to say again 
for the record that children are dying during this wait. 
Children who have families here ready to provide for them are 
perishing needlessly. And we need our Government to act with a 
sense of urgency.
    Mr. Smith. Your point has been very well-taken.
    And you said you have knowledge of at least 10----
    Ms. Dempsey. Yes.
    Mr. Smith [continuing]. Who have passed away, for whom that 
would have not have been the case?
    Ms. Dempsey. Yes, sir.
    Mr. Stockman. I would just thank you for coming out. I 
appreciate it. And it has opened my eyes. But anybody that has 
worked with the DRC on any level, including humanitarian aid, 
it is a challenge. And I think the chairman and I will be 
dedicated to making sure that this hopefully will be resolved. 
Thank you.
    Mr. Smith. Yeah.
    Just one question, Ms. Dempsey, you might be able to 
answer. What part of the Department of State addresses 
international child welfare and protection?
    Ms. Dempsey. I am not aware of any part of the Department 
of State that addresses child welfare and child protection, 
which I think is a fundamental flaw.
    Mr. Stockman. Who is the--you said you talked to Department 
of State. Do you want to tell us after the hearing who that 
was, or----
    Ms. Dempsey. I will tell you in the hearing.
    Mr. Stockman. Okay.
    Ms. Dempsey. I am talking to the Office of Children's 
Issues. The primary communications are coming from the desk----
    Mr. Stockman. Okay.
    Ms. Dempsey. She is simply the messenger.
    Mr. Stockman. Yeah.
    Ms. Dempsey. But it is coming from the Office of Children's 
Issues and the Embassy in Kinshasa.
    Mr. Stockman. The Embassy. Okay. Thank you.
    Mr. Smith. Anything you would like to add before we 
conclude the hearing? And, perhaps, in that, if you would like 
to, if Susan Jacobs was sitting here rather than down at her 
office, what would you say? And, again, we will convey your 
testimonies to them in the spirit of encouragement and part-
admonishment, but if there is anything you would like to say 
before we close?
    Ms. Dempsey. I would just like to thank you sincerely for 
the opportunity to appear today and to share this information 
with you all and for all that you have done already for the 
children in need and all that you are committing to do going 
forward. The crisis can't be solved today, but it needs to be 
solved, and we need to be working toward that.
    With respect to Ambassador Jacobs, I welcome the 
opportunity to sit with her and to discuss these issues with 
her and to help the Department of State do their job better. I 
have been rebuffed in my personal----
    Mr. Smith. Did you say rebuffed?
    Ms. Dempsey. Yes, when I have offered to share my learnings 
and findings.
    And so I would ask--what I would like to know from the 
Department of State is why they are doing 100-percent field 
investigations, in what number of cases are they finding 
fraud--my guess is it is a very small number--what amount of 
resources they need to be more effective in doing their job, 
and why they are not advocating with a sense of urgency on 
behalf of these families.
    Thank you.
    Mr. Smith. Thank you.
    Ladies?
    Ms. Hunegnaw. I also want to thank you for this 
opportunity. And I would like to say that Save the Children 
would be happy to be a partner with the subcommittee or your 
staff to help them work on this issue. Thank you for the 
opportunity.
    Mr. Smith. Thank you.
    Ms. Jones. And I would like to thank you, too, for the 
opportunity to be the voice not only for my child but for the 
other adoptive moms and dads and parents out there that are 
ready to bring their children home.
    Mr. Smith. Ms. Muntemba?
    Ms. Muntemba. Thank you for the opportunity. And I look 
forward to continuing discussions and broaden help for African 
orphans, of AIDS especially, and for children in conflict 
areas.
    And, one of these days, I would like to really say, how are 
you going to help us beyond adoption? Because, really, the need 
is great out there.
    Mr. Smith. No, I hear you.
    Ms. Muntemba. And maybe, as Congresspeople, you can help 
push for that help to come from the U.S., the USAID and 
national country offices, and maybe we can get more help that 
way.
    Thank you.
    Mr. Smith. That point is well-taken.
    And the larger scope of the hearing today, again, we would 
have loved to have had the Office of Children's Issues here, 
and we will make that request again. But Nancy Lindborg, who is 
a very competent and very effective person with whom I 
personally and this subcommittee in toto have had a very good 
working relationship with, she is very committed, as is her 
staff, on that larger issue that you mentioned, which is why I 
opened up with the first 1,000 days of life as being absolutely 
transformative for the next 30,000 days of that child into 
adulthood, individual person.
    And if it doesn't start in the womb, the susceptibility to 
malaria and a host of other diseases is greater, the immune 
system is far less efficacious in fighting off diseases than if 
you start while he or she is still an unborn child. And that 
needs to grow exponentially in Africa, in Latin America, 
elsewhere, Asia, and this country as well.
    So I would like to thank--Steve, if you have any further 
comments? Or are we----
    Mr. Stockman. No.
    We just have a great chairman, that is all. It is 
unanimous.
    Mr. Smith. Well, we will follow this up with a part two, 
and we will invite Ambassador Jacobs, or her designee, but I do 
hope she will come, especially to hear, you know, testimonies 
the likes of which we heard today. But we will give her your 
testimonies, as well.
    So thank you.
    And the hearing is adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               

 Material submitted for the record by Ms. Muluemebet Chekol Hunegnaw, 
   senior director, Monitoring & Evaluation and Knowledge Management 
Program Quality and Impact Department, International Programs, Save the 
                                Children

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Material submitted for the record by Ms. Kelly Dempsey, general counsel 
        and director of advocacy and outreach, Both Ends Burning
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <all>

</pre></body></html>
